BECKER GALLAGHER
Briefs

and

DONNA). WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Brief for Amici Curiae
Stephen Wise Temple and Milwaukee Jewish Day
School in Support of Petitioners in 19-267, Our Lady of
Guadalupe School v. Agnes Morrissey-Berru, and 19348, St. James School v. Darryl Biel, as Personal
Representative of the Estate of Kristen Biel, were sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day Service and e-mail to
the following parties listed below, this 10th day of
February, 2020:
Eric Christopher Rassbach
The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, NW
Suite 700
Washington, DC 20036
(202) 955-0095
erassbach@becketlaw.org

Counsel for Petitioners
Jennifer Anne Lipski
JML Law, A Professional Law Corporation
5855 Topanga Canyon Boulevard
Suite 300
Woodland Hills, CA 91367
(818) 610-8800
jennifer@jmllaw.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

Paul D. Clement
Counsel of Record
Erin E. Murphy
Andrew C. Lawrence
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 10, 2020.

w:

(0

Donna J.
Becker Gallagh e · Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

'J

Notary Public
[seal]

